      Department of Homeland Security




      State of Kansas’ Management of State Homeland
         Security Program Grants Awarded During
                Fiscal Years 2008 Through 2010




OIG-12-122                                September 2012

                    OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      SEP 14 2012

MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     StatefoffKansas’fManagementfoffStatefHomelandfSecurityf
                             ProgramfGrantsfAwardedfDuringfFiscalfYearsf2008f
                             Throughf2010f

Attached for your action is our final report, StatefoffKansas’fManagementfoffStatef
HomelandfSecurityfProgramfGrantsfAwardedfDuringfFiscalfYearsf2008fThroughf2010.
We incorporated the formal comments from the Director of Office of Policy and
Program Analysis in the report.

The report contains three recommendations aimed at improving the State of Kansas’
Homeland Security Grant Program. Your office concurred with all three
recommendations. As prescribed by the Department of Homeland Security Directive
077-1, Follow-Up and Resolutions for the Office of Inspector General Report
Recommendations, within 90 days of the date of this memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date for each recommendation.
Also, please include responsible parties and any other supporting documentation
necessary to inform us about the current status of each recommendation. Until your
response is received and evaluated, all three recommendations will be considered open
and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                 OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ......................................................................................................................... 2


   Results of Audit ................................................................................................................... 3


        Monitoring of Grant Management and Administrative Costs ...................................... 3


        Assessing the Effects of Grant Funding on Preparedness ............................................ 4


        Recommendations ........................................................................................................ 6


        Management Comments and OIG Analysis .................................................................. 7


   Appendixes
        Appendix A:           Objectives, Scope, and Methodology ................................................... 9

        Appendix B:           Management Comments to the Draft Report .................................... 11 

        Appendix C:           Description of Homeland Security Grant Program ............................. 14 

        Appendix D:           Kansas Highway Patrol’s Homeland Security Program Organization . 15 

        Appendix E:           Major Contributors to This Report ..................................................... 17 

        Appendix F:           Report Distribution ............................................................................. 18 


   Abbreviations
              DHS                   Department of Homeland Security 

              FEMA                  Federal Emergency Management Agency

              FY                    fiscal year

              OIG                   Office of Inspector General





www.oig.dhs.gov                                                                                                                OIG-12-122
                        OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the State of Kansas.

   The objectives of the audit were to determine whether the State of Kansas spent State
   Homeland Security Program funding effectively and efficiently and in accordance with
   Federal, State, and agency statutes, regulations, and guidance. We also assessed the
   extent to which the grant funding enhanced the State’s ability to prevent, prepare for,
   protect against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. From fiscal year 2008 through fiscal year 2010, the State of Kansas was
   awarded $21.4 million in State Homeland Security Program funding.

   Generally, the State of Kansas did an effective job of working with its regional and local
   partners to develop a Homeland Security Strategic Plan that allocated grant funding
   based on national and State priorities. However, we identified instances in which the
   expenditure of State Homeland Security Program funds did not comply with Federal
   procurement, monitoring, and performance requirements. As a result, we questioned
   $197,532 of unsupported management and administrative costs. We also determined
   that the State of Kansas did not have measurable outcomes established to allow it to
   fully evaluate the effects of grant funding on its emergency preparedness capabilities.

   The report contains three recommendations to the Federal Emergency Management
   Agency (FEMA) that, when fully implemented, should improve program transparency,
   accountability, and performance. FEMA officials concurred with all three
   recommendations. Written comments to the draft report are incorporated as
   appropriate and are included in appendix B.




www.oig.dhs.gov                                 1                                       OIG-12-122
                                   OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Background
   DHS, through FEMA, provides Federal funding to States to enhance their ability to prevent,
   deter, respond to, and recover from terrorist attacks, major disasters, and other
   emergencies. Funds are distributed to individual States through FEMA’s Homeland Security
   Grant Program, which includes the State Homeland Security Program. The State of Kansas
   designated the Kansas Highway Patrol as the State Administrative Agency for the Homeland
   Security Grant Program. From fiscal year (FY) 2008 through FY 2010, FEMA awarded
   $21.4 million in State Homeland Security Program funding to the State of Kansas. As of the
   start of our audit fieldwork, in July 2011, $11.2 million (52 percent) remained unspent.
   Appendix C contains additional details about the Homeland Security Grant Program.

   The Kansas Highway Patrol awarded Homeland Security Grant Program funds to
   subgrantees, including State agencies, homeland security regions within the State, and a
   fiscal agent.1 All the State agencies and one of the seven homeland security regions we
   reviewed used their own policies, procedures, and internal controls to ensure compliance
   with Homeland Security Grant Program award requirements. The remaining six homeland
   security regions relied on the services of a fiscal agent selected by the Kansas Highway
   Patrol to ensure compliance with fiscal grant award procurement requirements.

   Once the fiscal agent entered into the subgrant agreement with the Kansas Highway Patrol,
   the fiscal agent assumed responsibility for all Homeland Security Grant Program funds
   awarded to its six regions. This included the responsibility for procuring, disbursing,
   accounting for, and reporting grant funds in accordance with all Federal and State
   Homeland Security Grant Program fiscal requirements. The fiscal agent was responsible for
   the procurement of the grant’s assets; the regions received, maintained, and used the
   assets.

   The homeland security regions are composed of staff from local agencies within the region,
   but they do not have any authority to receive or expend funds. Kansas homeland security
   regions create an annual grant budget detailing the best use of State Homeland Security
   Program grant funds for the region. The Kansas Highway Patrol and FEMA must approve
   the budget. Once the budget is approved, the fiscal agent can begin procuring the
   approved equipment and services for the region. The fiscal agent verifies that the regions
   received the equipment or services and then requests grant funds from the Kansas Highway
   Patrol to pay the invoices.

   This audit is required by Public Law 110-53, ImplementingfRecommendationsfoffthef9/11f
   CommissionfActfoff2007, as amended. The audit covers $21.4 million in State Homeland

   1
    A fiscal agent is a government or nonprofit entity responsible for meeting all Homeland Security Grant
   Program fiscal and reporting requirements.


www.oig.dhs.gov                                        2                                             OIG-12-122
                                    OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Security Program funds awarded to the State over the course of FYs 2008, 2009, and 2010.
   See appendix A for additional details on the purpose, scope, and methodology for this audit.

   Results of Audit
   Generally, the State of Kansas worked effectively with its regional and local partners to
   develop a Homeland Security Strategic Plan, and allocated and spent grant funding based
   on national and State priorities. However, we identified instances in which the expenditure
   of State Homeland Security Program funds did not comply with Federal procurement,
   monitoring, and performance requirements. As a result, we questioned $197,532 of
   unsupported management and administrative costs. We also determined that the absence
   of measurable outcomes made it difficult for OIG or FEMA to evaluate the effects of State
   Homeland Security Program expenditures on the State’s preparedness capabilities.

           Monitoring of Grant Management and Administrative Costs

           The State of Kansas did not properly identify and validate management and
           administrative costs in accordance with Federal and State requirements.
           Specifically, the fiscal agent representing six of the seven homeland security regions
           could not provide supporting documentation for any of the management and
           administrative costs totaling $197,532 submitted to and reimbursed by the State
           from FY 2008 through October 2011. The Kansas Highway Patrol did not detect the
           need for supporting documentation because it decided to reimburse the fiscal agent
           for the maximum allowable amount of management and administrative costs
           without requiring support for these costs. Kansas Highway Patrol and fiscal agent
           officials said that they believed the fiscal agent was entitled to the maximum
           allowable percentage of management and administrative costs under the grant. The
           Kansas Highway Patrol processes, reviews, and approves all grantee and subgrantee
           requests for reimbursement of management and administrative costs associated
           with the Homeland Security Grant Program. Management costs are indirect costs,
           administrative expenses, and any other expenses that a grantee or subgrantee
           reasonably incurs in administering and managing a Federal grant. Administrative
           costs are any direct costs incurred by the grantee or subgrantee that can be
           separately identified and assigned to a specific project, including staff time to
           conduct project inspections and prepare and submit a project worksheet. The
           maximum allowable percentage of management and administrative costs for the
           Homeland Security Grant Program was set at 3 percent for grants awarded from FY
           2008 through FY 2009, and was increased to 5 percent for grants awarded during FY
           2010.

           Federal and State regulations require that source documentation support all grantee
           and subgrantee requests for reimbursement of management and administrative


www.oig.dhs.gov                                3                                      OIG-12-122
                                    OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


           costs. Examples of source documentation include receipts, employee timesheets
           and attendance records, supervisors’ letters of certification, canceled checks, and
           bank statements. Similar source documentation requirements are included in
           subgrantee contracts between the Kansas Highway Patrol (grantee), the fiscal agent
           (subgrantee), and six of the homeland security regional councils.

           Fiscal agent officials believed that the fiscal agent’s status as a local unit of
           government entitled it to reimbursement of all management and administrative
           costs and exempted it from having support for those costs. They cited the Kansas
           Highway Patrol’s approval of all prior requests for the maximum allowable cost
           reimbursement without supporting source documentation. The fiscal agent was
           unable to provide supporting documentation for its management and administrative
           costs.

           The Kansas Highway Patrol processed numerous fiscal agent requests for
           reimbursement over a 3-year period without a single request for source
           documentation. Kansas Highway Patrol officials said that the fiscal agent’s status as
           a subgrantee required it to maintain adequate source documentation for all
           management and administrative costs and to submit such documentation to the
           State upon request.

           The Kansas Highway Patrol acknowledged that it did not have the requisite policies,
           procedures, and internal controls to ensure that it accounted for all management
           and administrative costs associated with the Homeland Security Grant Program as
           required by Federal and State agency standards. State officials proposed a
           corrective action plan to ensure future fiscal agent compliance with all management
           and administrative cost requirements.

           Assessing the Effects of Grant Funding on Preparedness

           The State Administrative Agency (Kansas Highway Patrol) did not include goals and
           objectives with specific and measurable outcomes in its strategic plan. Without
           measurable outcomes, the State could not evaluate the effect of grant expenditures
           on meeting its preparedness capability goals.

           Code of Federal Regulations Title 44 §13.40(a), Monitoring and reporting program
           performance, requires that grantees monitor grant- and subgrant-supported
           activities to ensure that performance goals are being achieved. Departmentfoff
           HomelandfSecurityfStatefandfUrbanfAreasfHomelandfSecurityfStrategyfGuidancefonf
           AligningfStrategiesfwithfthefNationalfPreparednessfGoal, dated July 22, 2005, states
           that an objective sets a tangible and measurable target level of performance over
           time against which actual achievement can be compared, including a goal expressed
           as a quantitative standard, value, or rate. Therefore, objectives should be—


www.oig.dhs.gov                                4                                      OIG-12-122
                                            OFFICE OF INSPECTOR GENERAL
                                                        Department of Homeland Security



            •	 Specific, detailed, particular, and focused—help to identify what is to be 

               achieved and accomplished; 

            •	 Measurable—quantifiable, providing a standard for comparison, and identifying
               a specific achievable result;
            •	 Achievable—not beyond a State, region, jurisdiction, or locality’s ability;
            •	 Results-oriented—identify a specific outcome; and
            •	 Time-limited—identify a target date for the objective to be achieved.

           In 2010, during a review of the State’s strategic plan, FEMA identified areas for
           improvement to ensure that Kansas’ strategic goals and objectives could be better
           measured, including specific target dates for all goals and objectives, as well as
           specific desired outcomes. For example, FEMA recommended more specific desired
           outcomes for objectives and steps related to implementation of the National
           Incident Management System/National Response Framework; and Chemical,
           Biological, Radiological/Nuclear, and Explosive capabilities. According to State
           officials, steps had been and were being taken to address these areas for
           improvement. Table 1 shows some goals and associated objectives included in the
           State’s 2008–2010 Homeland Security Strategies that FEMA identified as needing
           improvement.

           Table 1. Kansas Homeland Security Strategic Goals and Objectives 

           That Do Not Include Specific and Measurable Outcomes (FYs 2005–2014) 

                                                 Kansas Strategy FYs 2005–2009

                      GOALS                                               OBJECTIVES
             Goal 17. (Respond/Recover) To support the           17.1 Use the Metropolitan Medical Response System
             expansion and sustainment of Metropolitan           Advisory Council to prepare a statewide strategy for
             Medical Response System planning and                the expansion and sustainment of Metropolitan
             organizations for communities in the 15 State       Medical Response System in Kansas (December
             bioterrorism regions.                               2006).
             Goal 18. (Respond/Recover) To maintain a            18.1. Enhance the ability to mitigate, respond to, and
             statewide emergency management system that          recover from all hazards effectively through use of
             ensures Kansas is prepared for any incident or      National Incident Management System and evolving
             disaster.                                           technology (December 2006).
                                                   Kansas Strategy FYs 2010–2014

                                  GOALS                                                OBJECTIVES
             Goal 1. Improve the ability to share intelligence   1.1 Build and sustain a State Fusion Center capability
             and information on all hazards facing the           (December 2009).
             citizens.
             Goal: 2. (Prevent, Protect, Respond, Recover)       2.1 Enhance and maintain a secure network of
             Enhance the State’s ability to communicate and      redundant statewide interoperable voice
             share information.                                  communication systems within 5 years of securing
                                                                 funding.




www.oig.dhs.gov                                            5                                           	     OIG-12-122
                                        OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security



           The Post-KatrinafEmergencyfManagementfReformfActfoff2006, as amended,f
           requires any State receiving Federal preparedness assistance to submit a State
           Preparedness Report to FEMA. Kansas’ 2008 State Preparedness Report identified
           the State’s progress toward achieving target capabilities; however, it did not provide
           specific desired outcomes measurable against the goals and objectives of its
           strategic plan.

           A recent Government Accountability Office report indicated that FEMA, in response
           to Public Law 111-271, RedundancyfEliminationfandfEnhancedfPerformancefforf
           PreparednessfGrantsfAct, was planning to generate measurable national
           preparedness capability requirements and evaluation criteria (e.g., speed,
           effectiveness, and efficiency). 2 These requirements and criteria would provide a
           comprehensive framework to guide investments and assess readiness.

           We determined that the State of Kansas did an effective job of working with its
           regional and local partners to develop a Homeland Security Strategic Plan that
           allocated grant funding based on national and State priorities. However, without
           specific, measurable outcomes in its strategic plan, the State of Kansas did not have
           a sufficient basis to evaluate the effect of grant expenditures on its preparedness
           and response capabilities.

           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate,
           require the Superintendent of the Kansas Highway Patrol to:

           Recommendation #1: Conduct a review of all management and administrative costs
           associated with the Homeland Security Grant Program incurred from FY 2008
           through FY 2011 to determine allowable costs and to seek recovery of any
           unsupported amounts.

           Recommendation #2: Develop and implement policies, processes, and internal
           controls to ensure a full and proper accounting of management and administrative
           costs associated with the Homeland Security Grant Program.

           Recommendation #3: Develop strategic goals, objectives, and outcomes that are
           specific, measurable, achievable, results oriented, and time limited.



   2
    OpportunitiesftofReducefPotentialfDuplicationfinfGovernmentfPrograms,fSavefTaxfDollars,fandfEnhancef
   Revenuef(GAO-11-318SP), March 1, 2011.


www.oig.dhs.gov                                      6                                            OIG-12-122
                                    OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


           Management Comments and OIG Analysis

           Previously we had reported on the fiscal agent’s bidding procedures regarding
           acquisitions that were less than $100,000. The fiscal agent followed procurement
           procedures that were inconsistent with Kansas Highway Patrol procurement
           procedures. We removed this finding based upon additional information provided
           by the Kansas Highway Patrol, FEMA, and our legal counsel. As result,
           recommendations 1 and 2 in management’s comments were removed from our final
           report. Recommendations 1, 2, and 3 correlate to recommendations 3, 4, and 5 in
           management’s comments.

           Although the finding was removed from the final report, the Kansas Highway Patrol
           developed and implemented a corrective action plan to bring the fiscal agent’s
           procurement procedures into alignment with those of other State agencies and
           entities receiving State Homeland Security Grant Program funding. The Kansas
           Highway Patrol also revised its Homeland Security Grant Program Policy Manual to
           reflect the recommendations and lessons learned from the OIG audit and FEMA
           monitoring activity.

           FEMA and the Kansas Highway Patrol concurred with recommendation 1. FEMA
           stated that it will require the Kansas Highway Patrol to conduct a review of all
           management and administrative costs incurred under the Homeland Security Grant
           Program for FY 2008 through FY 2011 to determine allowable costs, along with the
           proper source documentation for these costs. FEMA agreed to work with the State
           of Kansas to reallocate or seek recovery of expenditures that are unsupported by
           proper source documentation. The Kansas Highway Patrol agreed to conduct a
           review of all management and administrative costs associated with the Homeland
           Security Grant Program incurred from FY 2008 through FY 2011.

           FEMA and the Kansas Highway Patrol concurred with recommendation 2. FEMA
           stated that it will require the Kansas Highway Patrol to submit written policies and
           procedures that focus on improving and implementing internal controls to ensure
           proper accounting (including proper source documentation) of management and
           administrative costs associated with the Homeland Security Grant Program.

           The Kansas Highway Patrol acknowledged that management and administrative
           costs associated with the fiscal agent were not requested, received, identified, or
           validated. The Kansas Highway Patrol developed a corrective action plan (dated
           November 29, 2011) that addressed this issue and outlined procedures to ensure
           that proper documentation is received and validated. In addition, the Kansas
           Highway Patrol stated that its Homeland Security Grant Program Policy Manual was
           revised in January 2012 to reflect recommendations and lessons learned from the
           OIG audit and FEMA monitoring activity.


www.oig.dhs.gov                                 7                                      OIG-12-122
                                    OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security



           FEMA concurred with recommendation 3. FEMA stated that it will request the
           Kansas Highway Patrol to make improvements and revisions to the State strategy as
           needed. FEMA did not request that the new strategy be submitted at this time.
           However, FEMA emphasized that when strategy updates are made in the future,
           specific attention must be paid to ensuring that goals and objectives are more
           specific, achievable, results oriented, and time limited.

           The Kansas Highway Patrol stated that in early 2012, FEMA accepted Kansas’ 2011
           strategy update. However, because of language reported in previous OIG audits of
           other States’ Homeland Security Grant Programs, FEMA recommended that the
           Kansas Highway Patrol revisit its goals and objectives for more measureable and
           expected outcomes. The Kansas Highway Patrol stated that while it had
           satisfactorily addressed its areas of improvement, its partners were updating and
           had completed four of the six goals to ensure that goals and objectives meet FEMA’s
           expectation of measuring preparedness. The Kansas Highway Patrol stated that it
           continues to work on its final two goals with local and State subject matter experts.
           In addition, Kansas partners are expected to rewrite the strategy in the summer of
           2013, developing strategic goals, objectives, and outcomes that are specific,
           measureable, achievable, results oriented, and time limited.

           The responses of FEMA and the Kansas Highway Patrol include positive steps for
           implementing recommendations 1 through 3. If fully implemented, the actions
           identified in the responses should address the conditions identified during the audit.
           The recommendations are considered unresolved and open, pending final
           implementation of the proposed corrective actions.




www.oig.dhs.gov                                8                                       OIG-12-122
                                    OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment to
   the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and special
   reports prepared as part of our oversight responsibilities to promote economy, efficiency,
   and effectiveness within the Department.

   The objectives of this audit were to determine whether the State of Kansas spent State
   Homeland Security Program funding effectively and efficiently and in compliance with
   Federal laws and regulations, as well as DHS guidelines governing the use of such funding.
   In addition, we assessed the extent to which grant funds enhanced the ability of State
   grantees to prevent, prepare for, protect against, and respond to natural disasters, acts of
   terrorism, and other manmade disasters.

   The scope of this audit included the plans developed by the State to improve preparedness
   and responses to all hazards, the goals set within those plans, the measurement of progress
   toward the goals, and the assessments of performance improvement. Furthermore, the
   scope included assessment of these activities within the context of risk to determine
   whether the State’s plans improved strategic performance in the areas of highest risk,
   rather than merely improving performance in a broader sense.

   The Homeland Security Grant Program, which includes five interrelated grant programs,
   funds a range of preparedness activities such as planning, organization, equipment
   purchases, training, exercises, and management and administration. Because of the
   interrelationship of these grant programs, all must be considered when evaluating the
   planning cycle and the effectiveness of the overall grant program. However, only State
   Homeland Security Program grants, and equipment and programs supported by these
   grants, were reviewed for compliance.

   The audit methodology included interviews with FEMA representatives as well as work in
   the State, and with the following fiscal agent, regions, and State agencies that were
   awarded grants from FY 2008 through FY 2010.

   Fiscal Agent

       •   North Central Regional Planning Commission




www.oig.dhs.gov                                9                                       OIG-12-122
                                            OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security


   Regions

       •   Northeast
       •   South Central
       •   Northwest
       •   Kansas City Metro

   State Agencies

       •   Kansas Department of Agriculture
       •   Kansas Department of Emergency Management

   At each location, we interviewed responsible officials, reviewed documentation supporting
   State and subgrantee management of grant funds, and physically inspected selected
   equipment procured with grant funds.

   The scope of the audit included only State Homeland Security Program funds out of the
   entire Homeland Security Grant Program awards (see table 2).

                              Table 2. State of Kansas Homeland Security Grant Program Awards
                          Funded Activity        FY 2008       FY 2009        FY 2010           Total
                  State Homeland Security       $7,530,000    $7,280,500    $6,613,200     $21,423,700
                  Program
                  Urban Areas Security             N/A           N/A           N/A              N/A
                  Initiative
                  Total                         $7,530,000    $7,280,500    $6,613,200     $21,423,700
                  Operation Stonegarden            N/A           N/A            0                0
                  Citizen Corps Program          $189,278      $188,614      $161,632       $539,524
                  Metropolitan Medical           $642,442      $642,442      $634,838      $1,919,722
                  Response System Program
                           Grand Total         $8,361,720    $8,111,556     $7,409,670    $23,882,946

                    Source: FEMA.

   We conducted this performance audit between June and October 2011 pursuant to the
   InspectorfGeneralfActfoff1978, as amended, and according to generally accepted government
   auditing standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based upon our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based upon our audit
   objectives.




www.oig.dhs.gov                                      10                                           OIG-12-122
                                          OFFICE OF INSPECTOR GENERAL 

                                                     Department of Homeland Security 



   Appendix B
   Management Comments to the Draft Report

                                                                           U.S. Or p:Ulmtnl of lI omeland Sec:urlly
                                                                                       Washington, DC 20472




                                                     ,JI;>j   1j   ~J'2




             MEMORANDUM FOR:               Anne L. Richards
                                           Assistant Inspector General for Audits
                                           Office of Inspector General

             FROM:                         DavidJ.   Kaufmanvia,~": · ~
                                           Director
                                           FEMA Office of Po licy and Program Analysis

             SUBJECT:                      Comments to OIG Draft Report, The State of Kansas's Management             0/
                                           State Homeland Security Program Grams Awarded Durillg Fiscal
                                           Years 2008 through 2010


             The Federal Emergency Management Agency (FEMA) appreciates the opportunity to review and
             respond to the Department of Homeland Security (DHS) Office of Inspector General (O IG) Draft
             Report. The State of Kansas's Management o/Sulle Homelalld Security Program Grants Awarded
             During Fiscal Years 2008 through 2010. As noted in our responses to your recommendations,
             below, FEMA is continuing to work to resolve the issues identified in the audit.

              I. Compliance with Fed eral and State Procurement Requirements

             The OIG recommends that the Assistant Administrator, Grant Programs Directorate, require the
             Superintendent of the Kansas Highway Patrol (KHP) to:

             Recommendation # 1: Develop and implement policies, procedures, internal controls, and reporting
             requirements to ensure that all expendi tures of Homeland Security Grant Program (HSGP) funding
             comply with federal and state procurement and financial management requirements.

             FEMA Response: FEMA concurs with this recommendation. FEMA will require the KHP to
             submit within 90 days of receipt of our letter written policies and procedures which focus on
             improving and implementing internal controls and reporting requi rements in order to ensure all
             expend itures under the HSGP program adhere to federal and state procurement and financial
             management requirements.

             FEMA believes this sati sfies the intent of the recommendation and requests that this
             recommendation be considered resolved and closed.




www.oig.dhs.gov                                                11                                                          OIG-12-122
                                          OFFICE OF INSPECTOR GENERAL
                                                       Department of Homeland Security




             Recommendation #2: Conduct a cost and price analysis of all HSGP procurements of assets valued
             at more than $2,000 made by the fiscal agent between FY 2008 and FY 20 II to identify
             procurements with excessive costs and to seek recovery of the excessive costs from the State of
             Kansas.

             FEMA Response: FEMA does not concur with the recommendation. Per the tenns and conditions
             of the subgrant award between the KHP and all their subgrantees, the subrecipient agrees to expend
             grant funds solely and exclusively in compliance with the KHP HSGP Policy Manual -- not the
             State orKansas Procurement Manual. as stated on page 4 of the OIG Draft Report. TheSzate of
             Kansas Procurement Manual is a policy document used to serve as a reference guide to state
             agencies and personnel. It is not a law or a regulation. The KHP HSGP Policy Manual states that
             "Regional Council subrecipient equipment purchases must follow the bidding procedures of the
             fiscal agent's county and such procedures must meet or exceed the federal requirement for bids."
             The fiscal agent in question drafted their procurement policy in accordance with 44 CFR 13.36 (d)
             (I) which sets the threshold for simplified acquisition at $100,000. FEMA will review the
             questioned costs with the Kansas Highway Patrol to insure all procurements were made in
             accordance with 44 CFR 13.36.

             FEMA believes this satisfies the intent of the recommendation and requests that this
             recommendation be resolved and closed.

             2. Monitoring of Grant Management and Administrative Costs

             The DIG recommends that the Assistant Administrator, Grant Programs Directorate, require the
             Superintendent of the Kansas Highway Patrol to:

             Recommendation #3: Conduct a review of all management and administrative costs associated with
             the HSGP incurred from FY 2008 through FY 2011 to determine allowable costs and to seek
             recovery of any unsupported amounts.

             FEMA Response: FEMA concurs with the recommendation. FEMA will require the KHP to
             conduct within 90 days of receipt of our letter, a review of all management and administration costs
             incurred under the HSGP grant program for fiscal years FY 08 through FY II to determine
             allowable costs along with the proper source documentation for these cost. FEMA will work with
             the state to reallocate or seek recovery of expenditures which are unsupported by proper source
             documentation.

             FEMA believes this satisfies the intent of the recommendation and requests that this
             recommendation remain resolved and open.

             Recommendation #4: Develop and implement policies, processes, and internal controls to ensure a
             full and proper accounting of management and administrative costs associated with the Homeland
             Security Grant Program.

             FEMA Respouse: FEMA concurs with the recommendation. FEMA will require the KHP to
             submit within 90 days of receipt of our letter written policies and procedures which focus on
             improving and implementing internal controls which ensure proper accounting (including proper




www.oig.dhs.gov                                             12                                                      OIG-12-122
                                          OFFICE OF INSPECTOR GENERAL
                                                       Department of Homeland Security




             source docwnentation) of management and administration costs associated with the HSGP grant
             program.

             FEMA believes this satisfies the intent of the recommendation and requests that this
             recommendation remain resolved and open.

             3. Assessing the Effects of Grant Funding on Preparedness

             The OIG recommends that the Assistant Administrator, Grant Programs Directorate, require the
             Superintendent of the KHP to :

             Recommendation #5: Develop strategic goals, objectives, and outcomes that are specific,
             measurable, achievable, results..ariented, and time-limited.

             FEMA Response: FEMA concurs with the recommendation. FEMA will request that the KHP
             continue to make improvements and revisions to the state strategy as needed. FEMA is not
             requesting that a new strategy be submitted at this time. However, we would like to emphasize that
             when strategy updates are made in the future, special attention and consideration must be given to
             ensuring that goals and objectives are more specific, measurable, achievable. results-oriented. and
             time-limited. FEMA believes this satisfies the intent of the recommendation and requests that this
             recommendation remain resolved and open.

             Again. we thank you for the opportunity to review and comment on the recommendations
             concerning your draft report. Please do not hesitate to contact our Audit Liaison Office point of
             contact. Gina Norton at 202-646-4287. with any questions or concerns regarding our response.




www.oig.dhs.gov                                              13                                                    OIG-12-122
                                  OFFICE OF INSPECTOR GENERAL 

                                         Department of Homeland Security 



   Appendix C
   Description of Homeland Security Grant Program
   The Homeland Security Grant Program provides Federal funding to help State and local
   agencies enhance their capabilities to prevent, deter, respond to, and recover from
   terrorist attacks, major disasters, and other emergencies. The Homeland Security Grant
   Program encompasses several interrelated Federal grant programs, including the State
   Homeland Security Program, that together fund a range of preparedness activities,
   including planning, organization, equipment purchases, training, and exercises, as well as
   management and administrative costs.

   The State Homeland Security Program provides financial assistance directly to each
   State and U.S. Territory to prevent, respond to, and recover from acts of terrorism and
   other catastrophic events. The program supports implementation of the State
   Homeland Security Strategy to address identified planning, equipment, training, and
   exercise needs.

   In addition to the State Homeland Security Program, the Homeland Security Grant
   Program includes other interrelated grant programs with similar purposes. Depending
   on the fiscal year and State or Territory, the Homeland Security Grant Program includes
   the following:

   •   Urban Areas Security Initiative
   •   Operation Stonegarden
   •   Metropolitan Medical Response System Program
   •   Citizen Corps Program




www.oig.dhs.gov                                14                                      OIG-12-122
                                 OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix D
   Kansas Highway Patrol’s Homeland Security Program
   Organization
   The Homeland Security Grant Program is funded through FEMA and is administered by
   the Kansas Highway Patrol, the State of Kansas’ State Administrative Agency for the
   Homeland Security Grant Program. The Homeland Security Operations section of the
   Kansas Highway Patrol is responsible for grants administration.

   Homeland Security Grant Program funds are passed by the Kansas Highway Patrol
   Homeland Security Operations to subgrantees, defined as any county, regional council,
   or State agency awarded funds from the Kansas Highway Patrol in its role as the State
   Administrative Agency. Regional councils represent homeland security regions. Six of
   seven regional councils are represented by a fiscal agent. (Kansas City does not use the
   fiscal agent.) The fiscal agent is the government/nonprofit entity responsible for
   meeting fiscal and reporting requirements to the Kansas Highway Patrol on behalf of the
   regional councils.




www.oig.dhs.gov                              15                                     OIG-12-122
                                  OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



   Each regional council is overseen by a chairperson. Regional councils are responsible for
   bylaws and governing structures.

   The Kansas Highway Patrol primarily interacts with regional councils to discuss any
   actions related to programmatic requirements of Kansas Highway Patrol-administered
   Homeland Security Grant Program grants and to serve as a resource for Homeland
   Security Grant Program guidance, questions, or concerns raised by the regional councils.

   The intent and outcome of these grants is to support objectives as outlined by FEMA
   within the National Preparedness Goal, National Priorities, National Incident
   Management System, National Response Framework, and the National Infrastructure
   Protection Plan.

   In its role as the State Administrative Agency, the Kansas Highway Patrol intends to meet
   these standards, with local, regional, and State capabilities being the highest priorities.
   Other key partners in homeland security at the State level are the Kansas Bureau of
   Investigation, Kansas Department of Transportation, Kansas Department of Agriculture,
   Kansas Department of Health and Environment, Kansas Division of Emergency
   Management, Kansas State Fire Marshall, and Kansas Department of Animal Health.




www.oig.dhs.gov                                16                                       OIG-12-122
                               OFFICE OF INSPECTOR GENERAL 

                                       Department of Homeland Security 



   Appendix E
   Major Contributors to This Report
   Richard T. Johnson, Director
   Paul M. Streit, Audit Manager
   Armando Lastra, Program Analyst
   Tessa May-Fraser, Program Analyst
   Michael Staver, Program Analyst
   Sue Vernier, Auditor
   Katrina Bynes, Referencer




www.oig.dhs.gov                            17                              OIG-12-122
                                   OFFICE OF INSPECTOR GENERAL 

                                           Department of Homeland Security 



   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grants Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grants Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  18                            OIG-12-122
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
